No. 20-569

Iu the Supreme Court of the United States

ELIM ROMANIAN PENTECOSTAL CHURCH and
Locos BAPTIST MINISTRIES, Petitioners,

Wu

JAY ROBERT PRITZKER,
in his official capacity as Governor of the State of Illinois, Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE

I, Jane Elinor Notz, a member of the Bar of this Court, certify that on March 8, 2021,
I emailed a copy of the NOTICE OF SUPPLEMENTAL AUTHORITY in the above
entitled case to all parties required to be served, and who consented to electronic
service only, pursuant to this Court’s order of April 15, 2020, strongly encouraging
electronic service when feasible. Those emails were addressed to the following:

Daniel Joseph Schmid Mathew D. Staver
dschmid@lc.org court@lc.org

| fens Eline Hb lea Webs /n 4
Jae Elinor Notz

100 West Randolph Street
Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for Respondent
